           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    CONTROLS OVER SURVIVOR’S
    BENEFITS WHEN INDICATIONS
   EXIST A WAGE EARNER IS ALIVE


   August 2007      A-06-06-16088




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:      August 8, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls over Survivor’s Benefits When Indications Exist a Wage Earner Is Alive
           (A-06-06-16088)


           OBJECTIVE

           Our objective was to determine the appropriateness of continued survivor’s benefits
           when Social Security Administration (SSA) records contain evidence the wage earner is
           alive.

           BACKGROUND

           Title II of the Social Security Act provides for the payment of survivor benefits to certain
           family members of deceased workers who paid Social Security taxes. Eligible family
           members include widows, widowers (and divorced widows and widowers), children and
           dependent parents. Up to 10 years of work is needed to be eligible for benefits,
           depending on the person's age at the time of death. SSA must obtain sufficient proof of
           death prior to initiating survivor benefit payments. During Calendar Year 2006, SSA
           paid approximately $93 billion in survivor benefits to over 6 million beneficiaries.

           SSA obtains information from a variety of sources to verify initial benefit entitlement and
           continued benefit eligibility. In some instances, SSA receives post-entitlement
           information that contradicts the validity of death entries posted on a wage earner’s
           record. Our review focused on three such sources of data available to SSA:
           (1) prisoner information reported by correctional facilities through the Prisoner Update
           Processing System (PUPS); (2) reports of earned wages posted to either the Earnings
           Suspense File (ESF) or Master Earnings File (MEF); and (3) replacement Social
           Security number (SSN) card issuances recorded on SSA’s Numerical Identification
           (Numident) record.
Page 2 - The Commissioner

Additional Background information is provided at Appendix B. The Scope and
Methodology of our review is provided at Appendix C.

RESULTS OF REVIEW
Information on post-entitlement activity reported to SSA raised questions about the
validity of the death entries used as the basis for survivor benefit claims. SSA took no
action to confirm the appropriateness of the survivor’s payments after receiving reports
the number holders (NH) [ i.e., the allegedly deceased wage earners] were
incarcerated, earned wages, or obtained replacement SSN cards after their alleged
date of death. This occurred because SSA did not have a process to compare
incarceration, wage payment and replacement card issuance activity against SSA
records to identify potentially questionable survivor claims. We estimate SSA will pay
approximately $239 million, including past and future survivor benefit payments, on
these records. See Summary of Survivor Benefits Payable at Appendix D.

CORRECTIONAL FACILITY REPORTS RAISED QUESTIONS ABOUT DEATH
ENTRY VALIDITY

SSA matches prisoner information (name, SSN, date of birth, and gender) against its
payment records to identify imprisoned beneficiaries and suspend their payments.
When a match occurs, SSA systems add a warning onto the wage earner’s Master
Beneficiary Record (MBR). In addition to the warning annotated on the wage earner’s
MBR, SSA systems generate an electronic alert to notify the servicing field office to
review the case for possible benefit suspension if the wage earner is also a beneficiary
in current payment status. However, if the prisoner is not a beneficiary in current
payment status or is recorded as deceased on payment records, SSA systems do not
generate an alert and SSA takes no further action even if SSA is currently paying
survivor benefits to the wage earner’s family members.

We identified 21,556 allegedly deceased individuals, with dates of death since
January 1998, who were reported to be in correctional facility custody at the same time
SSA payment records indicated survivor benefit payments were made to the individual’s
family. As of June 2006, we found that 1,817 of the 21,556 cases were in current pay
status and had a date of incarceration that occurred during the same month or later as
the alleged date of death. 1

One example from the group of 1,817 involved a wage earner who allegedly died in
April 2002, and SSA awarded survivor benefits to his children in the same month. More
than 1 year later, SSA received a report from a correctional facility indicating the
allegedly deceased wage earner was incarcerated. We found no indication that SSA
took any action in response to this report, and the survivor benefit payments to his
children continued unaffected. From August 2003 through March 2007, SSA paid

1
 The other individuals either no longer had survivors in current payment status or were confined in a
month preceding the date of death in SSA records; however, PUPS did not reflect a release date and this
provided the appearance the number holders were still incarcerated.
Page 3 - The Commissioner

$38,175 in survivor benefits to the wage earner’s five children. Displayed below is the
actual warning that appeared on the wage earner’s payment record (personal
information removed):




Although SSA matched the prisoner information to this individual’s payment record, it
took no further action. This occurred because SSA procedures did not direct
employees to follow up on the appropriateness of the survivor benefits paid to family
members; instead, it only took action when the incarcerated individual was the
beneficiary. The flowchart below illustrates, in blue, the system’s control to warn SSA
that an incarcerated individual may be receiving SSA benefits. It further illustrates, in
red, how SSA could expand its process to act on cases where survivor’s benefits also
exist.

                            Correctional facility
                             provides prisoner                 SSA matches prisoner
                            information to SSA.            information (name, SSN, date
                                                           of birth, gender) against SSA
                                                               records to determine if
                                                          prisoner has a payment record.
            Does prisoner
            have a payment
               record?
                                     NO                        SSA should determine if
                                                             prisoner’s family members
                       YES                                    receive survivor benefits.

            SSA annotates
          payment record with
           prisoner warning.

                                                                Does prisoner’s
                                                                 family receive
       SSA determines if prisoner                                  survivor
        currently receives SSA                                     benefits?                  NO



                 Does                                                                        No further
                prisoner                             NO                                     action taken.
                                                                            YES
              receive SSA
               benefits?
                                                            Alert sent to servicing field
                                                             office to review claim for
                                                           possible benefit suspension.
                                                    YES
Page 4 - The Commissioner

                              To understand better the prisoner identification process, we
Correctional Facility         contacted correctional facilities that in January or February
Prisoner Identification       2006, reported the incarceration of 10 of the 1,817 NHs.
Process                       Each of the 10 facilities attempted to identify prisoners by
                              processing their fingerprints through a Federal Bureau of
Investigation (FBI) database. The correctional facilities provided SSA with prisoner
information (e.g. name, date of birth, SSN) obtained from the FBI fingerprint match, as
well as known aliases used by the prisoner. Based on positive identification provided
through the FBI fingerprint matching process, it appears that at least 4 of the 10 NHs
were in correctional facility custody after the date of death that appeared on their SSA
record:

         Date of Death
         Per Survivor Confinement          Release
Prisoner    Claim        Date               Date             Status as of Dec 2006
    1      Aug 2005     Feb 2006           Mar 2006     Transferred to a mental institution
    2      Aug 2000     Feb 2006           Apr 2006                 Released
    3      Aug 2003     Jan 2006           Feb 2006    Transferred to U.S. Marshall Service
    4      Nov 1998     Jan 2006             N/A                  Incarcerated


                    To better ascertain the current status of the 1,817 NHs with
Attempts to Verify  survivor beneficiaries in current payment status, we randomly
Current Status      selected 100 for further review. We obtained and reviewed
                    each of these NHs’ MBR, Numident, PUPS record, and Claims
Development Worksheets. We noted additional concerns with 31 of the 100 records:

•   Six contained Enumeration Verification System code “V” or “L.” SSA assigns these
    codes based on the degree of match between reported prisoner information and
    SSA records. SSA considers PUPS reports with code “V” or “L” to be valid matches
                  2
    for identity.

•   Six involved approved survivor claims, although the allegedly deceased wage
    earners’ Numident also indicated he/she was alive.

•   Eight involved survivor claims that family members did not file until 8 to 28 months
    after the alleged death of the primary wage earner.

•   Eleven involved extenuating circumstances that included questions of paternity, lack
    of sufficient proof of death, or even lack of existence of a child on whose behalf a
    claim was filed and approved.




2
 SSA Program Operations Manual System (POMS) GN 02607.600A(1)(b), Analyzing the PUPS
Record/Alert for Action.
Page 5 - The Commissioner

In November 2006, SSA agreed to perform death re-verifications on each of these
31 records. As of January 22, 2007, SSA completed reviews on 16 of the 31 records
by verifying, in a few cases, the death through the “holder of the record;” looking for an
indication on its claims development that a death certificate had been provided; or
noting if the prisoner information did not exactly match the NH information in SSA
records. Based on this review, SSA concluded that each of the 16 NHs were actually
deceased. SSA continues to review the remaining 15 cases.

WAGE PAYMENT REPORTS RAISED QUESTIONS ABOUT DEATH ENTRY
VALIDITY

                             We identified 41 individuals with survivor beneficiaries who
Earnings Suspense File reportedly earned $1,000 or more in wages at least 2 Tax
                             Years (TY) after their year of death by reviewing the ESF
from one segment of the MBR. We reviewed wages paid in TYs 1999-2003. If similar
results occurred on all 20 segments of the MBR, we estimate the total number of
allegedly deceased individuals with post death earnings who had survivor benefits paid
from their accounts would be 820. In about half the cases, the reported wages were
earned in at least 2 different TYs after the year of death. We noted that SSA did not
have a procedure for following up on survivor benefits to allegedly deceased wage
earners who continue to have reported earnings. Instead, it merely placed the reported
earnings in the ESF. The table below illustrates the number of individuals with reported
earnings at least 2 TYs after the year of death.

          41 Wage Earners from 1 MBR Segment with $1,000 or More in Wages
             Reported at Least 2 Tax Years After Their Alleged Year of Death
                                  (Tax Years 1999-2003)

   Number of Post-Death Tax Years With                        Number of
   Earnings Posted to the Suspense File                      Wage Earners
                  1 year                                         20
                 2 years                                          9
                 3 years                                          5
                 4 years                                          6
                 5 years                                          1
                  Totals                                         41
Page 6 - The Commissioner

The chart below illustrates wage reports SSA received for 1 of the 41 wage earners,
both before and after his alleged death, as well as survivor benefits paid to the wage
earner’s family members:


                              Wages Reported by a Grocery Store Chain
             at the Same Time SSA Paid Survivor Benefits to the Worker's Family Members


                                                          No Break in Earnings
   $70,000
   $60,000
                                                                                        Earnings
   $50,000
   $40,000
   $30,000
   $20,000                                                                              Survivor
                                                                                        Paym ents
   $10,000
       $0
              1995   1996   1997     1998   1999   2000   2001   2002   2003     2004

                     Alleged Date
                          of Death   Survivor
                        (Dec 1997)   Claim Filed
                                     (Jan 1998)




                         By reviewing the entire MEF for TYs 2000 through 2004, we
Master Earnings File identified 62 individuals who earned wages in at least
                         3 different TYs after their alleged year of death who also had
survivor benefits paid from their accounts. These individuals were identified as
deceased in the MBR but did not have a death entry in the Numident record. The death
entry in the Numident record would have resulted in the earnings being posted to the
ESF instead of the MEF (see Wage Reporting in Appendix B). A summary of
post-death earnings for these 62 individuals is provided below:

                      62 Individuals Whose Earning Record Reflected
                           Wages Earned in Tax Years After Death
                                   (Tax Years 2000-2004)

  Number of Post Death Tax Years With                                 Number of
     Earnings Posted on the MEF                                      Wage Earners
                   3                                                     40
                   4                                                     12
                   5                                                     10
                  Total                                                  62
Page 7 - The Commissioner

The chart below illustrates earnings posted to the MEF for 1 of the 62 wage earners,
both before and after his alleged death, as well as survivor benefits paid to the wage
earner’s family members:


                         Wages Reported by a Billiard Com pany and Posted to the MEF
                at the Sam e Tim e SSA Paid Survivor Benefits to the Worker's Fam ily Mem bers

     $30,000

                                                                      No Break in Earnings
     $25,000
                                                                                                 Earnings

     $20,000


     $15,000


     $10,000
                                                                                                 Survivor
                                                                                                 Paym ents
      $5,000


         $0
               1997    1998     1999     2000     2001     2002      2003     2004     2005

                                           Alleged            Survivor
                                        Date of Death        Claim Filed
                                         (June 2000)         (Aug 2002)



Because deceased individuals cannot earn wages, the wage reports should have
alerted SSA to the possibility that the NHs were not actually deceased and triggered a
review of the survivor benefit claims.

REPLACEMENT CARDS ISSUED AFTER DEATH RAISED QUESTIONS ABOUT
DEATH ENTRY VALIDITY

SSA continues to issue replacement SSN cards to wage earners whose MBR indicates
they are deceased. Effective November 2002, SSA prohibited issuance of replacement
cards on the record of deceased individuals. 3 Our report, Social Security Number
Cards Issued After Death, (A-06-03-13078) issued April 2005, identified
12,502 instances from December 1987 through August 2004 when SSA issued
replacement SSN cards, although a date of death appeared on the NH’s Numident. In
response, SSA agreed to strengthen controls to prevent future occurrences. However,
from April 2005 to November 2005, SSA issued replacement cards on an additional
83 records that contained approved survivor benefit claims with beneficiaries in current
payment status. The fact these cards were issued indicates SSA verified the existence

3
    SSA, POMS, RM 00206.055(B)(2), SSN Applications on Behalf of Deceased Persons.
Page 8 - The Commissioner

of the NHs after the alleged date of death. SSA personnel who issued the card should
have questioned the survivor benefits paid to these NHs’ family members.

CONCLUSION AND RECOMMENDATIONS
Information on the post entitlement activity that raised questions about the validity of
death entries used as the basis for approved survivor benefit claims went unnoticed
because SSA did not develop a process to compare PUPS, wage reporting, or
replacement card issuances against payment records containing survivor benefit
claims. Due to the amount of time that has passed since SSA received these reports of
post-entitlement activity, the actual status of the allegedly deceased NHs is not clear.
While the information received by SSA indicated the wage earners were alive, it was
also possible the activity resulted from identity theft, misuse of a deceased wage
earner’s SSN, or administrative error. However, to ensure the validity of an estimated
$239 million in benefit payments, SSA should timely identify and review reports of
activity that raises questions about approved survivor benefit claims.

We recommend SSA:

1. Establish a process to review the appropriateness of survivor’s payments when
   reports from correctional facilities indicate allegedly deceased wage earners were
   incarcerated after their recorded date of death.

2. Establish a process to review survivor’s payments when earnings on a wage
   earner’s account call into question whether the wage earner is actually deceased.

3. Improve the process for issuing replacement cards to include a cross check of
   survivor’s payments when a card is requested by an individual listed as deceased on
   either the MBR or Numident.

4. Review the payment records discussed in the report and take appropriate action
   (e.g., terminate benefits and establish overpayments, reinstate death entries, refer
   potentially fraudulent cases to the Office of the Inspector General).

AGENCY COMMENTS
The Agency agreed with Recommendations 1, 2, and 4; and agreed in principal with
Recommendation 3. See Appendix E for the full text of the Agency’s comments.
Page 9 - The Commissioner

OIG RESPONSE

In response to the Agency’s suggestion, we modified Recommendation 3 to include a
reference to the MBR and Numident records. We appreciate the comments received
from SSA and believe the actions taken or planned address our recommendations.




                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Summary of Survivor Benefits Paid/Payable

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
ESF        Earnings Suspense File
FBI        Federal Bureau of Investigation
MBR        Master Beneficiary Record
MEF        Master Earnings File
NH         Number Holder
Numident   Numerical Identification Record
POMS       Program Operations Manual System
PUPS       Prisoner Update Processing System
SSA        Social Security Administration
SSN        Social Security Number
TY         Tax Year
                                                                      Appendix B

Background
PRISONER UPDATE PROCESSING SYSTEM

In May 1983, Congress amended the Social Security Act to prohibit payment of Title II
benefit payments to prisoners. Section 202(x)(1) of the Act provided for nonpayment of
monthly benefits for any month during which an individual was confined to a jail, prison,
or other penal institution or correctional facility pursuant to conviction of an offense
constituting a felony under applicable law. Additional provisions effective April 2000
prohibited payment of Title II benefits to individuals confined for more than 30
continuous days pursuant to the conviction of a crime or confined by court order in
connection with certain verdicts or findings with respect to a criminal offense.

Effective March 1997, Public Law 104-193 required the Social Security Administration
(SSA) to make incentive payments to eligible correctional facilities and institutions who
submit timely reports of inmate information which results in benefit suspension. To
meet the requirements of the law, SSA developed Prisoner Update Processing System
(PUPS). Through this system, Federal, State and local correctional and mental health
facilities report prisoner information. SSA processes prisoner Social Security Numbers
(SSN) through the Enumeration Verification System and against ALPHADENT files as
appropriate. SSA matches “verified” SSNs against Master Beneficiary Records (MBR)
and Supplemental Security Records for eligibility during the period of confinement.
When this process identifies a prisoner in current payment status, an active PUPS
record is established and an alert is generated.

WAGE REPORTING

Title II of the Social Security Act requires that SSA maintain records of wage amounts
employers pay to individuals as well as self employment earnings. 1 Employers report
individuals’ annual earnings on Form W-2, Wage and Tax Statement. Self employed
individuals report earnings on individual income tax returns.

Each year, SSA receives approximately 250 million earnings reports and matches these
reports against its records. Generally, when wages are reported under the name and
SSN of a valid, living Number Holder (NH), SSA posts the earnings to the NH’s Master
Earnings File (MEF). However, if this match identifies discrepancies and SSA is unable
to post the reported earnings to the appropriate records, the earnings are posted to the
Earnings Suspense File (ESF). SSA posts earnings reports to the ESF for a number of
reasons including:


1
    42 U.S.C. §405(C)(2)(A).


                                         B-1
•     Earnings records fail the name and SSN validation test.

•     Earnings records consist of invalid SSNs.

•     SSA records indicate that the individual is under the age of 7.

•     SSA records indicate that the individual is deceased.

•     An individual informs SSA that posted earnings are erroneous.
Our review focused on wage reports suspended because SSA records indicated the
individual was deceased. Further, we identified all instances where SSA posted
earnings to a wage earner’s MEF although the same wage earner’s MBR indicated he
or she was deceased and the MBR contained a survivor benefit claim.

NUMIDENT

Each year, SSA issues millions of replacement SSN cards. SSA records replacement
card issuances on a NH’s Numident record, SSA’s repository of issued SSNs. SSA
recognizes that, over time, the SSN has become a primary means of identification in
both the public and private sectors and that, as use of the SSN has grown, so has
identity fraud. To this end, SSA has a role in combating identity fraud through the
prevention and detection of SSN misuse. 2 Effective November 2002, SSA prohibited
                                                                    3
issuance of replacement cards on behalf of deceased individuals.




2
    SSA’s Fiscal Year 2004 Performance and Accountability Report, page 31.
3
 SSA, Program Operations Manual System (POMS), RM 00206.055(B)(2), SSN Applications on Behalf of
Deceased Persons.


                                                 B-2
                                                                                  Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to the Earnings Suspense File (ESF), Master Earnings File (MEF), Prisoner Update
    Processing System (PUPS), Numerical Identification file (Numident), and survivor
    benefits.

•   Reviewed data in SSA systems including PUPS, ESF, MEF, Numident, Master
    Beneficiary Record (MBR), Summary Earnings Query (SEQY), Detail Earnings
    Query (DEQY), and Veterans Benefit Administration Query (VBAQ).

•   Interviewed SSA headquarters staff regarding procedures used when there are
    indications a number holder (NH) with survivor beneficiaries has wages in the ESF,
    MEF, or is reported as incarcerated in PUPS.

•   Reviewed relevant reports issued by the Office of the Inspector General and
    Government Accountability Office.

•   Identified 21,556 NHs who died since January 1998, and whose MBR contained
    both a survivor benefit claim and a PUPS entry that showed a prisoner record
    existed for the NH. Review of PUPS confinement and release dates indicated 1,950
    of these NHs were confined in the same month or some month after the month of
    death that appeared in SSA records. 1 As of June 2006, 1,817 of the 1,950 NHs had
    survivor beneficiaries in current payment status.

•   Identified 8,788 wage reports from 1 segment of the MBR that were posted to the
    ESF for NHs who died since January 1997 and whose MBR contained a survivor
    benefit claim.

     Based on review of the 8,788 suspended wage reports, we identified 145 NHs
      with suspended wages that met the following criteria:

           the ESF contained at least two suspended wage reports citing the deceased
            NH’s name and Social Security number (SSN),

           the suspended wage amounts were $1,000 or greater, and

1
 The other individuals either no longer had survivors in current payment status or were confined in a
month preceding the date of death in SSA records; however, PUPS did not reflect a release date and this
provided the appearance the number holders were still incarcerated.


                                                  C-1
          the suspended wages were reportedly earned 2 or more tax years after the
           year of death reflected in SSA records.

     For each of the 145 NHs, we obtained MBR, Numident, SEQY, DEQY, and
      VBAQ. Based on review of these records, it appeared 41 of these NHs were
      alive.

•   Identified 85 NHs who died since January 1998 whose MBR contained a survivor
    benefit claim and whose MEF reflected wages earned in 3 or more tax years
    subsequent to the calendar year of the NH’s death. For each of the 85 NHs, we
    obtained and reviewed MBR, Numident, SEQY, DEQY, and VBAQ. Based on
    review of these records, it appeared that 62 of these NHs were alive.

•   Identified 83 NHs with survivor beneficiaries who obtained replacement SSN cards
    3 or more months after the date of death reflected in SSA records. SSA issued
    each of these cards after April 2005.

We performed our audit between February 2006 and January 2007 at SSA’s Regional
Office in Dallas, Texas. We did not test the general or application controls of SSA
systems that generated electronic data used for this audit. Instead, we traced selected
transactions to source documents and performed other validation tests and found the
data to be sufficiently reliable to meet our audit objectives. The entity audited was the
Office of the Deputy Commissioner for Operations. We conducted this audit in
accordance with generally accepted government auditing standards.




                                           C-2
                                                                                     Appendix D

Summary of Survivor Benefits Paid/Payable
        Survivor Benefits Paid/Payable Where Social Security Administration
         Records Indicated the Allegedly Deceased Wage Earner Was Alive

                                                                       Number of         Estimated
                      Source of Information                             Records           Benefits
    Prisoner Update Processing System Report that Indicated               1,817        $142,916,327 1
        Wage Earner Incarcerated in Month of, or Month after
                                                     Death
         Wages Posted to Earnings Suspense File 2 or More                  820          $85,133,040 2
                                       Years After Death
      Earnings Posted to Master Earnings File 3 or More Tax                 62            $6,079,701 2
                                         Years After Death
                                                                                                       2
      Replacement Social Security Number Cards Obtained 3                   83            $5,856,306
                                or More Months After Death
                                                             Total:       2,782        $239,985,374




1
  Amount based on benefits payable subsequent to December 2005 which includes (1) 12 months of
survivor benefit payment to widows and disabled adult children entitled on these payment records,
(2) survivor benefits payable to spouses caring for children through age 16, and (3) benefits payable to
surviving children through age 18.
2
 Amount calculated same as footnote 1 but also includes survivor benefits paid on these records through
December 2005.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      July 30, 2007                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Controls over Survivor’s Benefits When
           Indications Exist a Wage Earner is Alive” (A-06-06-16088) –INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 5-4636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONTROLS OVER SURVIVOR’S BENEFITS WHEN INDICATIONS
EXIST A WAGE EARNER IS ALIVE” (A-06-06-16088)


Thank you for the opportunity to review and comment on the draft report. It has always been our
responsibility to be diligent in protecting both the rights of our recipients and our resources.
Currently there are interfaces with the death files of outside agencies such as the Centers for
Medicare and Medicaid Services and the Department of Veterans Affairs to run against our
payment records. When these reports are received, if they meet certain requirements, we will use
them to either terminate benefits or to generate alerts so employees can investigate and take
appropriate action.

In addition, the Social Security Administration (SSA) is partially funding the States to automate
their death registration processes – the Electronic Death Registration (EDR) system. With EDR,
SSA will receive death certificate data within 5 days of an individual’s death. We will take
immediate action to stop benefits or generate appropriate alerts for investigation for any State
death report received with a verified Social Security number (SSN).

Regarding OIG’s findings in general, we acknowledge that while the report does raise questions
about SSA’s controls, not all the disputed cases have been fully investigated to support the total
improper payment estimate. For example, development was completed on only 16 of the 31
correctional facility reports, the category accounting for almost 60 percent of the estimated
improperly paid benefits. In these cases the number holders (NHs) were actually deceased, so the
survivor benefits were correctly paid. We believe that the report should emphasize that
according to our policy, SSA must have acceptable proof of death usually from the State Bureau
of Vital Statistics Agency or a Statement of Death by the Funeral Director (Form SSA-721)
before survivors’ benefits are awarded. It is our belief that some of the data sources listed in the
report that indicate that the wage earner may be alive are generally of lesser probative value than
that of a proof of death document.

As described by our actions above, we strive to ensure the appropriateness of all benefits,
including survivor’s benefits. We will consider the recommendations in this report in our
planning initiatives to reduce the amount and volume of these erroneous cases. However, we
must also balance priorities with the realities of budgetary constraints. In the short term, we can
enhance procedures that are already in place to minimize or prevent improper payments in the
areas noted in the subject report. Death file batch processes currently in use by SSA will
continue to be enhanced and more fully automated to ensure we continue to pay benefits to all
beneficiaries, including survivors, appropriately as resources permit.

Our responses to the specific recommendations are provided below.




                                                E-2
Recommendation 1

SSA should establish a process to review the appropriateness of survivor’s payments when
reports from correctional facilities indicate allegedly deceased wage earners were incarcerated
after their recorded date of death.

Response

We agree. We will add additional processing instructions to the GN 02607.000 section Prisoner
Suspension portion of the Program Operations Manual System (POMS) to require employees to
investigate Prisoner Update Processing correctional or mental health reports that are annotated to
SSA records where the wage earner is supposedly deceased and survivor entitlement has been
already awarded or will be awarded, without official proof of the wage earner’s death. The
instructions will alert the employee that SSA has received a questionable prisoner report where
survivor benefits are claimed and the prisoner report shows that the wage earner was incarcerated
after the date of death. The prisoner report must be investigated and resolved. The
GN02607.000 instructions will also be cross-referred to the appropriate section of the survivor
award POMS, death termination POMS and vice versa.

Recommendation 2

SSA should establish a process to review survivor’s payments when earnings on a wage earner’s
account call into question whether the wage earner is actually deceased.

Response

We agree. Currently, SSA sends correspondence to resolve all Earnings After Death reports (see
RM 03870.080). Employers often report death gratuities and other special payments to wage
earners, in the year following the worker's death as wages. Beginning tax year (TY) 1988, during
the Annual Wage Reporting process, the Numident is checked for the reported SSN to determine
if a death report has been received for that SSN. Numident death data is obtained from both SSA
and Non-SSA sources and may not be accurate. SSA attempts to verify whether the W-2, Self
Employment Income (SEI) report or Numident death record is erroneous and as necessary,
corrects the appropriate record(s). For TY 1988 through 1990, when a date of death is found and
the year of death is prior to the year of the reported earnings, the earnings were posted on the
Master Earnings File (MEF). For TY 1991 and later, all earnings, wages, and SEI are posted to
the Earnings Suspense File with an Earnings After Death Report (EADR) code.

Recommendation 3

SSA should improve the process for issuing replacement cards to include a crosscheck of
survivor’s payments when a card is requested by an individual listed as deceased.

Response



                                               E-3
We suggest the recommendation be revised to specifically refer to the Master Beneficiary Record
(MBR) and Numident records: “Improve the process for issuing replacement cards to include a
cross check of survivor’s payments when a card is requested by an individual listed as deceased
on either the MBR or Numident.”

We agree in part. Currently, policy requirements state that a replacement card cannot be issued
to a deceased individual. The Modernized Enumeration System (MES) will produce a feedback
message if the Numident contains a death indicator. The feedback message requires that the
office making the original request investigate and process appropriately. In order to clear that
feedback message, a management official must make the input to clear.

We will address the current policy compliance issue by issuing reminders to our field office
employees on the policies and procedures currently in place regarding issuing SSN cards when
the number holder is deceased. An alert (Investigate Message EM-16, Record Shows NH
Deceased) is generated to interrupt the issuance of an SSN replacement card to deceased
individuals when the record of death has been posted to SSA records. Instructions for resolving
erroneous death information on the Numident include correcting the Numident information and
making necessary corrections to any payment records.

Finally, it should be noted that there is a provision that has been approved by SSA for such
issuance of a card with a 2-PIN process. The second PIN must be that of a manager. This was
done for cases where there may be an emergency need for such a card. We would like additional
information on the cards issuances referenced in this report to see if they met that criterion and
for further investigation.

There are currently no interfaces between MES and payment records such as the MBR and/or
Supplemental Security Record. An interface is technically feasible, however it would be very
difficult as MES does not interact with the claims systems at this time in the manner proposed.
To implement the suggestion, the Enumeration System would have to read both the Title II and
Title XVI master files to identify beneficiaries who are receiving survivor's benefits based on the
replacement card applicant's account. An online access process such as this could substantially
decrease the response time currently provided to the field offices. The identification of such a
beneficiary is not a purely electronic process and additional manual evidentiary development
would be required. Ultimately implementation would be subject to Information Technology
resource availability.

Recommendation 4

SSA should review the payment records discussed in the report and take appropriate action (e.g.,
terminate benefits and establish overpayments, reinstate death entries, refer potentially fraudulent
cases to the Office of the Inspector General).

Response

We agree. We are currently in the process of reviewing the cases identified and will take any
action deemed appropriate. We expect completion of all actions by the end of this fiscal year.


                                                E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Lawson, Director, (410) 965-8071

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments
In addition to those named above:

   Wanda Renteria, Auditor-in-Charge

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-06-16088.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
